                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00897-242




    Combined Assessment Program 

            Review of the 

       VA Western New York 

         Healthcare System 

          Buffalo, New York 





July 15, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                              CAP Review of the VA Western New York Healthcare System, Buffalo, NY



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CPR            cardiopulmonary resuscitation
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Western New York Healthcare System
                 FPPE           Focused Professional Practice Evaluation
                 FY             fiscal year
                 HPC            hospice and palliative care
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 PRC            Peer Review Committee
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                       CAP Review of the VA Western New York Healthcare System, Buffalo, NY



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management – CS Inspections .............................................................                             8

  Coordination of Care – HPC ...................................................................................                  10

  Pressure Ulcer Prevention and Management .........................................................                              12

  Nurse Staffing .........................................................................................................        14

  Construction Safety.................................................................................................            15


Appendixes
  A. Facility Profile ....................................................................................................        17

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 18

  C. VISN Director Comments ..................................................................................                    19

  D. Facility Director Comments ...............................................................................                   20

  E. OIG Contact and Staff Acknowledgments .........................................................                              27

  F. Report Distribution .............................................................................................            28

  G. Endnotes ...........................................................................................................         29





VA OIG Office of Healthcare Inspections
                              CAP Review of the VA Western New York Healthcare System, Buffalo, NY



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
April 29, 2013.

Review Results: The review covered seven activities.                            We    made     no
recommendations in the following activity:

   Environment of Care

The facility’s reported accomplishments were lean project success in wheelchair
management, the offering of Kids’ Korner services to veterans, and receiving the
Energy Star® Award for the past 5 years.

Recommendations: We made recommendations in the following six activities:
Quality Management: Consistently complete peer review action items, and report results
to the Peer Review Committee. Initiate Focused Professional Practice Evaluations for
newly hired licensed independent practitioners. Revise the local observation bed policy
to include all required elements, and gather data about observation bed use. Review
each resuscitation code episode. Perform a quarterly review of the quality of entries in
electronic health records that includes all services. Include all required elements in the
quality control policy for scanning, and consistently scan the results of non-VA
purchased diagnostic tests into electronic health records. Ensure the blood usage and
review process includes the number of units that were outdated or otherwise discarded,
the results of proficiency testing, and the results of inspections by government or private
(peer) entities.

Medication Management – Controlled Substances Inspections: Consistently reconcile
1 day’s dispensing from the pharmacy to each automated unit. Validate hard copy
orders for five randomly selected dispensing activities in all non-pharmacy controlled
substances areas. Consistently verify audit trails for the destruction of 10 randomly
selected drugs at the Batavia pharmacy. Ensure controlled substances inspectors
receive annual updates and/or refresher training.

Coordination of Care – Hospice and Palliative Care: Ensure non-hospice and palliative
care clinical staff who provide care to patients at the end of their lives receive end-of-life
training. Offer bereavement services to patients and families.

Pressure Ulcer Prevention and Management: Ensure staff are consistent in pressure
ulcer documentation. Consistently perform and document daily skin inspections and/or
daily risk scales. Provide pressure ulcer education to patients at risk for or with
pressure ulcers and/or their caregivers. Ensure designated employees receive training
on how to accurately document pressure ulcer findings.



VA OIG Office of Healthcare Inspections                                                          i
                              CAP Review of the VA Western New York Healthcare System, Buffalo, NY


Nurse Staffing: Monitor          the      staffing   methodology   that   was   implemented     in
December 2012.

Construction Safety: Ensure designated employees receive ongoing construction safety
training.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 19–26, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                            JOHN D. DAIGH, JR., M.D. 

                                                           Assistant Inspector General for 

                                                              Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                              CAP Review of the VA Western New York Healthcare System, Buffalo, NY



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following seven activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

   	   Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2011, FY 2012, and FY 2013 through
April 26, 2013, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations
we made in our previous CAP report (Combined Assessment Program Review of the
VA Western New York Healthcare System, Buffalo, New York, Report
No. 08-02565-204, August 31, 2009). We made a repeat recommendation in QM.

During this review, we presented crime awareness briefings for 107 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and


VA OIG Office of Healthcare Inspections                                                         1
                              CAP Review of the VA Western New York Healthcare System, Buffalo, NY


included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
225 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Lean Project Success in Wheelchair Management
The management of facility wheelchairs was selected as a lean project to increase
wheelchair availability, ensure appropriate distribution, and document safety inspections
for and sanitation and maintenance of wheelchairs. The facility established an Incentive
Work Therapy Infection Prevention Team responsible for collecting, tracking, and
sanitizing wheelchairs. Team members station themselves at outpatient entrances, in
parking lots, and on units to tag and designate wheelchairs to meet the needs of the
units and clinics. The efforts have reduced the amount of time patients spend waiting
for transportation to appointments, have improved the ability to track sanitation and
maintenance of wheelchairs, and have provided meaningful work therapy assignments.

Kids’ Korner Pilot
In October 2011, the facility’s Buffalo campus began offering childcare for children ages
6 weeks to 12 years who accompany veterans to medical appointments. Kids’ Korner is
available weekdays and is free of charge. The service is in response to a national VA
study that showed that more than 10 percent of veterans had to cancel or reschedule
appointments due to lack of childcare. Kids’ Korner is part of a 2-year VHA pilot in
which 12 facilities submitted proposals. The facility was one of the three selected to
participate and was the first to offer the service.

Energy Star® Award Winner
The facility has been a recipient of the Energy Star® Award from the U.S.
Environmental Protection Agency for the past 5 years. The award recognizes facilities
that use 35 percent less energy and generate 35 percent less greenhouse gas
emissions than similar hospitals (general medical and surgical) across the nation.
In 2012, the facility was 1 of 54 facilities (7 VHA and 47 non-VHA) in the country to
receive the award.




VA OIG Office of Healthcare Inspections                                                         2
                                          CAP Review of the VA Western New York Healthcare System, Buffalo, NY



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                            Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
 X     Corrective actions from the protected peer           Six months of PRC meeting minutes reviewed:
       review process were reported to the PRC.              Of three actions expected to be completed,
                                                               two were not reported to the PRC.
 X     FPPEs for newly hired licensed independent           Twenty-five profiles reviewed:
       practitioners complied with selected                  None of the FPPEs were initiated. This was a
       requirements.                                           repeat finding from the previous CAP review.
 X     Local policy for the use of observation beds         Facility policy reviewed:
       complied with selected requirements.                  The facility’s policy did not include
                                                               assessment expectations or that each
                                                               observation patient must have a focused goal
                                                               for the period of observation.
 X     Data regarding appropriateness of                     The facility did not gather observation bed
       observation bed use was gathered, and                   use data.
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
 X     The CPR review policy and processes                  Six months of CPR meeting minutes reviewed:
       complied with requirements for reviews of             There was no evidence that the committee
       episodes of care where resuscitation was                reviewed each code episode.
       attempted.




VA OIG Office of Healthcare Inspections                                                                     3
                                          CAP Review of the VA Western New York Healthcare System, Buffalo, NY


 NC            Areas Reviewed (continued)                                       Findings
  X    There was an EHR quality review committee,           Six months of Medical Record Committee
       and the review process complied with                 meeting minutes reviewed:
       selected requirements.                                There was no evidence that the quality of
                                                               entries in the EHR was reviewed quarterly.
                                                             Not all services were included in review of
                                                               EHR quality.
       The EHR copy and paste function was
       monitored.
 X     Appropriate quality control processes were in         The quality control policy for scanning did not
       place for non-VA care documents, and the               include image quality, linking of scanned
       documents were scanned into EHRs.                      documents to the correct record, and indexing
                                                              the documents.

                                                            Sixteen EHRs of patients who had non-VA
                                                            purchased diagnostic tests reviewed:
                                                             Three test results were not scanned into the
                                                               EHRs.
 X     Use and review of blood/transfusions                 Three quarters of Transfusion Committee
       complied with selected requirements.                 meeting minutes reviewed:
                                                             The review process did not include the
                                                               number of units that were outdated or
                                                               otherwise discarded, the results of proficiency
                                                               testing, and the results of inspections by
                                                               government or private (peer) entities.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that actions from peer reviews
are consistently completed and reported to the PRC.

2. We recommended that processes be strengthened to ensure that FPPEs for newly hired
licensed independent practitioners are initiated.



VA OIG Office of Healthcare Inspections                                                                      4
                                          CAP Review of the VA Western New York Healthcare System, Buffalo, NY


3. We recommended that the local observation bed policy be revised to include all required
elements and that processes be strengthened to ensure that data about observation bed use is
gathered.

4. We recommended that processes be strengthened to ensure that the CPR Committee
reviews each code episode.

5. We recommended that processes be strengthened to ensure that the quality of entries in
the EHR is reviewed quarterly and that the review includes all services.

6. We recommended that the quality control policy for scanning includes image quality, linking
of scanned documents to the correct record, and indexing the documents and that processes be
strengthened to ensure that the results of non-VA purchased diagnostic tests are consistently
scanned into EHRs.

7. We recommended that processes be strengthened to ensure that the blood usage and
review process includes the number of units that were outdated or otherwise discarded, the
results of proficiency testing, and the results of inspections by government or private (peer)
entities.




VA OIG Office of Healthcare Inspections                                                                     5
                                          CAP Review of the VA Western New York Healthcare System, Buffalo, NY


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

At the Buffalo campus, we inspected two medical/surgical units, the behavioral health and
intensive care inpatient units, and one CLC. We also inspected SPS; the emergency and
physical therapy departments; and the primary care, oncology, and dialysis clinics. At the
Batavia campus, we inspected the primary care clinic and one CLC. Additionally, we reviewed
relevant documents, conversed with key employees and managers, and reviewed 29 employee
training and competency files (10 hemodialysis, 10 operating room, and 9 SPS). The table
below shows the areas reviewed for this topic. Any items that did not apply to this facility are
marked NA. The facility generally met requirements. We made no recommendations.

 NC           Areas Reviewed for General EOC                                    Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
             Areas Reviewed for Hemodialysis
       The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
       Monthly biological water and dialysate testing
       was conducted and included required
       components, and identified problems were
       corrected.



VA OIG Office of Healthcare Inspections                                                                     6
                                          CAP Review of the VA Western New York Healthcare System, Buffalo, NY


 NC          Areas Reviewed for Hemodialysis                                    Findings
                          (continued)
       Employees received training on bloodborne
       pathogens.
       Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
       Selected EOC/infection prevention/safety
       requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training
       and competency assessment.
       Operating room employees who performed
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                     7
                                          CAP Review of the VA Western New York Healthcare System, Buffalo, NY


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                           Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
 X     Instructions for inspecting automated                Automated dispensing machine inspection
       dispensing machines were documented,                 instructions reviewed:
       included all required elements, and were              In two CS areas, inspectors did not
       followed.                                               consistently reconcile 1 day’s dispensing from
                                                               the pharmacy to each automated dispensing
                                                               machine.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
 X     CS inspectors were appointed in writing,             Appointments, certifications, and training
       completed required certification and training,       records reviewed:
       and were free from conflicts of interest.             Six CS inspectors did not receive annual
                                                               updates and/or refresher training.
 X     Non-pharmacy areas with CS were inspected            Documentation of 10 CS areas inspected during
       in accordance with VHA requirements, and             the past 6 months reviewed:
       inspections included all required elements.           In four CS areas, inspectors did not validate
                                                               hard copy orders for five randomly selected
                                                               dispensing activities.
 X     Pharmacy CS inspections were conducted in            Documentation of pharmacy CS inspections
       accordance with VHA requirements and                 during the past 6 months reviewed:
       included all required elements.                       Inspectors did not consistently verify audit
                                                               trails for destruction of 10 randomly selected
                                                               drugs at the Batavia pharmacy.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                         8
                                          CAP Review of the VA Western New York Healthcare System, Buffalo, NY



Recommendations

8. We recommended that processes be strengthened to ensure that 1 day’s dispensing from
the pharmacy to each automated unit is consistently reconciled; that hard copy orders for
5 randomly selected dispensing activities are validated in all non-pharmacy CS areas; and that
at the Batavia pharmacy, audit trails for destruction of 10 randomly selected drugs are
consistently verified.

9. We recommended that processes be strengthened to ensure that CS inspectors receive
annual updates and/or refresher training.




VA OIG Office of Healthcare Inspections                                                                     9
                                          CAP Review of the VA Western New York Healthcare System, Buffalo, NY


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 21 employee training records (6 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC                    Areas Reviewed                                           Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
 X     HPC staff and selected non-HPC staff had              There was no evidence that 10 non-HPC staff
       end-of-life training.                                  had end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
 X     The CLC-based hospice program offered                 We did not find evidence that the CLC offered
       bereavement services.                                  bereavement services to patients and
                                                              families.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.




VA OIG Office of Healthcare Inspections                                                                    10
                                          CAP Review of the VA Western New York Healthcare System, Buffalo, NY


 NC            Areas Reviewed (continued)                                       Findings
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

10. We recommended that processes be strengthened to ensure that non-HPC clinical staff
who provide care to patients at the end of their lives receive end-of-life training.

11. We recommended that processes be strengthened to ensure that the CLC-based hospice
program offers bereavement services to patients and families.




VA OIG Office of Healthcare Inspections                                                                    11
                                          CAP Review of the VA Western New York Healthcare System, Buffalo, NY


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 23 EHRs of patients with pressure ulcers (10 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
3 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected three patient rooms. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                    Areas Reviewed                                           Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                    In 12 of the 23 EHRs, staff did not
       documenting location, stage, risk scale score,         consistently document the location, stage, risk
       and date acquired.                                     scale score, and/or date acquired.
 X     Required activities were performed for                Thirteen of the 20 applicable EHRs did not
       patients determined to be at risk for pressure          contain consistent documentation that staff
       ulcers and for patients with pressure ulcers.           performed daily skin inspections and daily
                                                               risk scales.
 X     Required activities were performed for                None of the three applicable EHRs contained
       patients determined to not be at risk for               consistent documentation that staff performed
       pressure ulcers.                                        daily skin inspections.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                    12
                                          CAP Review of the VA Western New York Healthcare System, Buffalo, NY


 NC            Areas Reviewed (continued)                                        Findings
  X    The facility defined requirements for patient        Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and          education requirements reviewed:
       education on pressure ulcer prevention and            For four of the applicable patients, EHRs did
       development was provided to those at risk for          not contain evidence that education was
       and with pressure ulcers and/or their                  provided.
       caregivers.
 X     The facility defined requirements for staff          Facility pressure ulcer staff education
       pressure ulcer education, and acute care staff       requirements reviewed:
       received training on how to administer the            Five employee training records did not
       pressure ulcer risk scale, conduct the                 contain evidence of training on how to
       complete skin assessment, and accurately               accurately document findings.
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
 X     The facility complied with any additional            VHA policy reviewed:
       elements required by VHA or local policy.             Eighteen of the 23 EHRs contained
                                                              inconsistent documentation of wound
                                                              characteristics or whether the wound had
                                                              improved or deteriorated during the admission
                                                              and/or at the time of discharge.

Recommendations

12. We recommended that processes be strengthened to ensure that staff are consistent in
pressure ulcer documentation of location, stage, size, characteristics, risk scale score, and date
acquired and whether the wound has improved or deteriorated during the admission or at the
time of discharge.

13. We recommended that processes be strengthened to ensure that staff consistently perform
and document daily skin inspections and/or daily risk scales.

14. We recommended that processes be strengthened to ensure that pressure ulcer education
is provided to patients at risk for or with pressure ulcers and/or their caregivers.

15. We recommended that processes be strengthened to ensure that designated employees
receive training on how to accurately document pressure ulcer findings and that compliance be
monitored.




VA OIG Office of Healthcare Inspections                                                                       13
                                          CAP Review of the VA Western New York Healthcare System, Buffalo, NY


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and mental health).6

We reviewed relevant documents and 30 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute post-surgical unit
5C, mental health unit 10D, and CLC unit Ward B at the Batavia campus for 52 randomly
selected days (holidays, weekdays, and weekend days) between October 1, 2012, and
March 31, 2013. The table below shows the areas reviewed for this topic. The area marked as
NC needed improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                         Findings
  X    The facility completed the required steps to          Required steps to develop a staffing
       develop a nurse staffing methodology by the            methodology were not completed until
       deadline.                                              December 2012.
 NA    The unit-based expert panels followed the
       required processes and included all required
       members.
 NA    The facility expert panel followed the required
       processes and included all required members.
 NA    Members of the expert panels completed the
       required training.
 NA    The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
 NA    The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

16. We recommended that nurse managers monitor the staffing methodology that was
implemented in December 2012.




VA OIG Office of Healthcare Inspections                                                                    14
                                          CAP Review of the VA Western New York Healthcare System, Buffalo, NY


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.7

We inspected the oncology clinic renovation project. Additionally, we reviewed relevant
documents and 17 training records (3 contractor records and 14 employee records), and we
conversed with key employees and managers. The table below shows the areas reviewed for
this topic. The area marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                    Areas Reviewed                                           Findings
       There was a multidisciplinary committee to
       oversee infection control and safety
       precautions during construction and
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
       Infection control, preconstruction, interim life
       safety, and contractor tuberculosis risk
       assessments were conducted prior to project
       initiation.
       There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
       Site inspections were conducted by the
       required multidisciplinary team members at
       the specified frequency and included all
       required elements.
       Infection Control Committee minutes
       documented infection surveillance activities
       associated with the project(s) and any
       interventions.
       Construction Safety Committee minutes
       documented any unsafe conditions found
       during inspections and any follow-up actions
       and tracked actions to completion.
 X     Contractors and designated employees                 Employee and contractor training records
       received required training.                          reviewed:
                                                             Six employee records did not contain
                                                               evidence of at least 10 hours of construction
                                                               safety-related training in the past 2 years.
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.



VA OIG Office of Healthcare Inspections                                                                        15
                                          CAP Review of the VA Western New York Healthcare System, Buffalo, NY


 NC            Areas Reviewed (continued)                                       Findings
       Storage and security requirements were met.
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.

Recommendation

17. We recommended that processes be strengthened to ensure that designated employees
receive ongoing construction safety training and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    16
                                    CAP Review of the VA Western New York Healthcare System, Buffalo, NY
                                                                                           Appendix A

                  Facility Profile (Buffalo/528) FY 2013 through
                                    March 2013a
Type of Organization                                                                   Tertiary
Complexity Level                                                                       1c
Affiliated/Non-Affiliated                                                              Affiliated
Total Medical Care Budget in Millions (Parent Facility 2012)                           $299
Number of:
    Unique Patients                                                                   47,572
    Outpatient Visits                                                                 282,451
    Unique Employeesb                                                                 1,543
Type and Number of Operating Beds: (through
February 2013)
    Hospital                                                                          145
    CLC                                                                               120
    Mental Health                                                                     60
Average Daily Census: (through February 2013)
    Hospital                                                                          103
    CLC                                                                               102
    Mental Health                                                                     38
Number of Community Based Outpatient Clinics                                           6
Location(s)/Station Number(s)                                                          Jamestown/582GB
                                                                                       Dunkirk/528GC
                                                                                       Niagara Falls/528GD
                                                                                       Lockport/528GK
                                                                                       Lackawanna/528GQ
                                                                                       Olean/528GR
VISN Number                                                                            2




a
    All data is for FY 2013 through March 2013 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  17
                                 CAP Review of the VA Western New York Healthcare System, Buffalo, NY
                                                                                        Appendix B

                          VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                   Inpatient Scores                                 Outpatient Scores
                       FY 2012                                          FY 2012
                Inpatient       Inpatient       Outpatient       Outpatient       Outpatient       Outpatient
                Score           Score           Score            Score            Score            Score
                Quarters 1–2    Quarters 3–4    Quarter 1        Quarter 2        Quarter 3        Quarter 4
    Facility    57.5            65.9            64.4             64.5             56.5             64.6
    VISN        64.0            67.2            62.4             62.0             60.5             63.5
    VHA         63.9            65.0            55.0             54.7             54.3             55.0



                       Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                Mortality                                      Readmission
               Heart Attack    Heart            Pneumonia       Heart Attack     Heart            Pneumonia
                               Failure                                           Failure
    Facility   15.0            12.1             13.7            19.5             25.7             21.2
    U.S.
    National   15.5            11.6             12.0            19.7             24.7             18.5




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                         18
                              CAP Review of the VA Western New York Healthcare System, Buffalo, NY
                                                                                     Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date: 	         June 24, 2013

       From: 	         Director, VA Health Care Upstate New York (10N2)

       Subject: 	      CAP Review of the VA Western New York Healthcare
                       System, Buffalo, NY

       To: 	           Director, Bedford Office of Healthcare Inspections (54BN)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed the VA OIG Combined Assessment Program (CAP)
          review for VA Western New York Healthcare System and concur with
          the recommendations.

       2. VA Western New York Healthcare System has established corrective
          action plans with designated dates of completion as detailed in the
          attached report. If any additional information or assistance is needed,
          please contact Kathryn Varkonda, RN, MSN at 716-862-6380.


           (original signed by Darlene Delancey for:)
           David J. West, FACHE 

           Network Director 





VA OIG Office of Healthcare Inspections                                                        19
                                 CAP Review of the VA Western New York Healthcare System, Buffalo, NY
                                                                                        Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs                                      Memorandum


       Date:            June 24, 2013

       From:            Director, VA Western New York Healthcare System (528/00)

       Subject:         CAP Review of the VA Western New York Healthcare
                        System, Buffalo, NY

       To:              Director, VA Health Care Upstate New York (10N2)

       I have reviewed the VA OIG Combined Assessment Program (CAP)
       review for VA Western NewYork Healthcare System and concur with the
       recommendations.

       VA Western New York Healthcare System has established corrective
       action plans with designated dates of completion as detailed in the
       attached report. If additional information or assistance is needed, please
       contact Kathryn Varkonda, RN, MSN at (716) 862-6380.


         (original signed by:)
       BRIAN G. STILLER
       Medical Center Director




VA OIG Office of Healthcare Inspections                                                           20
                              CAP Review of the VA Western New York Healthcare System, Buffalo, NY


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that

actions from peer reviews are consistently completed and reported to the PRC. 


Concur


Target date for completion: May 20, 2013 


Facility response: The Chief of Staff has implemented a tracking tool for all 

recommendations coming from PRC. These actions will be tracked to completion on

the PRC minutes and displayed.


Recommendation 2. We recommended that processes be strengthened to ensure that

FPPEs for newly hired licensed independent practitioners are initiated. 


Concur


Target date for completion: June 20, 2013 


Facility response: 


   1. Facility FPPE policy presented on June 20, 2013 at Credentialing and Privileging
      Committee, approved by full committee.
   2. FPPE initiation documents will be brought to the Credentialing and Privileging
      Coordinator for presentation to the Credentialing and Privileging Committee as
      part of the approval process.
   3. FPPE initiation documents will be made available to the Medical Center Director
      before final approval will be given.

Recommendation 3. We recommended that the local observation bed policy be
revised to include all required elements and that processes be strengthened to ensure
that data about observation bed use is gathered.

Concur

Target date for completion: June 21, 2013

Facility response:

   1. The Observation Bed Policy (Center Memorandum 11-064) had been amended
      to include all required elements and assessment expectations as found in VHA
      Directive 2012-011.


VA OIG Office of Healthcare Inspections                                                        21
                              CAP Review of the VA Western New York Healthcare System, Buffalo, NY


   2. Utilization 	Management will ensure that data regarding appropriateness of
      observation bed use is gathered and conversions to acute admissions are less
      than 30 percent.
   3. Observation criteria to monitor proper utilization in compliance with VHA
      Directive 2012-011.

Recommendation 4. We recommended that processes be strengthened to ensure that
the CPR Committee reviews each code episode.

Concur

Target date for completion: April, 16, 2013

Facility response: Tracking information has been added to the CPR Committee minutes.

Recommendation 5. We recommended that processes be strengthened to ensure that
the quality of entries in the EHR is reviewed quarterly and that the review includes all
services.

Concur

Target date for completion: June 30, 2013

Facility response: A medical records tracking system was developed to provide EHR
review of all services offered. This tool will include specific review criteria for monitoring
data and will be reviewed by Medical Records Committee.

Recommendation 6. We recommended that the quality control policy for scanning
includes image quality, linking of scanned documents to the correct record, and
indexing the documents and that processes be strengthened to ensure that the results
of non-VA purchased diagnostic tests are consistently scanned into EHRs.

Concur

Target date for completion: June 30, 2013

Facility response:

   1. The Center Memorandum outlining the process for scanning of documents will be
      reviewed to include the image quality, linking of scanned documents to the
      correct record and indexing the documents. Once the documents have been
      scanned by the service or CBOC, they will then fall under the Quality Assurance
      Center Memorandum to ensure image quality, linking of scanned documents to
      the correct record, and indexing the documents to provide access by the
      providers.




VA OIG Office of Healthcare Inspections                                                        22
                              CAP Review of the VA Western New York Healthcare System, Buffalo, NY


   2. The document scanning process will be	 reviewed to ensure that scanned
      documents related to Non-VA purchased diagnostic tests maintain the same
      level quality as internally scanned documents. This will be monitored through the
      Medical Records Committee.

Recommendation 7. We recommended that processes be strengthened to ensure that
the blood usage and review process includes the number of units that were outdated or
otherwise discarded, the results of proficiency testing, and the results of inspections by
government or private (peer) entities.

Concur

Target date for completion: June 12, 2013

Facility response: The following information will be reported and monitored by the
Transfusion Committee on a monthly basis:

   1. The number of units that were outdated or otherwise discarded,
   2. The results of all (not just sub-optimal) Blood Bank proficiency tests, and
   3. The results of inspections by government or private (peer) entities.

Recommendation 8. We recommended that processes be strengthened to ensure that
1 day’s dispensing from the pharmacy to each automated unit is consistently reconciled;
that hard copy orders for 5 randomly selected dispensing activities are validated in all
non-pharmacy CS areas; and that at the Batavia pharmacy, audit trails for destruction of
10 randomly selected drugs are consistently verified.

Concur

Target date for completion: August 1, 2013

Facility response:

   1. During the monthly CS inspection, a dispensing review process will be included
      on the inspection sheet to ensure that 1 day’s dispensing from the pharmacy of
      each units automated dispensing unit is reconciled.
   2. During the monthly CS inspection, five randomly selected dispensing activities
      will be included on the narcotic inspection sheets to assure that required random
      dispensing activities are validated in all non-pharmacy CS areas.
   3. During the monthly CS inspection, audit trails for the destruction of 10 randomly
      selected drugs at the Batavia pharmacy will be included on the narcotic
      inspection sheet to verify that destruction of CS is consistent.




VA OIG Office of Healthcare Inspections                                                        23
                              CAP Review of the VA Western New York Healthcare System, Buffalo, NY


Recommendation 9. We recommended that processes be strengthened to ensure that
CS inspectors receive annual updates and/or refresher training.

Concur

Target date for completion: June 28, 2013

Facility response: All CS Inspector’s will receive annual training using the Controlled
Substance Inspection Certification Program in TMS. The TMS system will be used to
track compliance. The process for annual updates/refresher training for CS Inspectors
will be completed by June 28, 2013.

Recommendation 10. We recommended that processes be strengthened to ensure
that non-HPC clinical staff who provide care to patients at the end of their lives receive
end-of-life training.

Concur

Target date for completion: July 31, 2013

Facility response: All clinical staff providing direct care to end of life patients will be
educated using the video “VA Palliative Care: Leading the Way” in TMS. TMS system
will be used to track compliance.

Recommendation 11. We recommended that processes be strengthened to ensure
that the CLC-based hospice program offers bereavement services to patients and
families.

Concur

Target date for completion: June 1, 2013

Facility response: Chaplain Services will provide a bereavement support visit for all CLC
residents with Advanced Illness/Palliative Care Consult Team consults. Chaplain
Services will provide post death phone calls to family/documented NOK (next of kin) for
all post patient deaths on a CLC. The medical records will be monitored to ensure that
bereavement support is offered to all families in a support group setting or individually.

Recommendation 12. We recommended that processes be strengthened to ensure
that staff are consistent in pressure ulcer documentation of location, stage, size,
characteristics, risk scale score, and date acquired and whether the wound has
improved or deteriorated during the admission or at the time of discharge.

Concur

Target date for completion: July 31, 2013




VA OIG Office of Healthcare Inspections                                                        24
                              CAP Review of the VA Western New York Healthcare System, Buffalo, NY


Facility response:

   1. All RNs will be	 educated on the pressure ulcer documentation to include;
      location, stage, size, characteristics, risk scale score, and date acquired and
      whether the wound has improved or deteriorated from the date of admission to
      the date of discharge.
   2. The Wound Care Specialists will monitor to ensure that documentation is
      consistent and comprehensive.

Recommendation 13. We recommended that processes be strengthened to ensure
that staff consistently perform and document daily skin inspections and/or daily risk
scales.

Concur

Target date for completion: July 31, 2013

Facility response: Unit Nurse Managers will monitor that staff consistently perform and
document daily skin inspections and/or daily risk scales.

Recommendation 14. We recommended that processes be strengthened to ensure
that pressure ulcer education is provided to patients at risk for or with pressure ulcers
and/or their caregivers.

Concur

Target date for completion: July 31, 2013

Facility response: The Clinical Nurse Educators and the Veterans Health Education
Coordinator will work collaboratively to develop and implement an education program
for staff RNs to use in providing education to patients at risk for or with pressure ulcers
and/or their caregivers. Patient/caregiver education will be monitored monthly by Unit
Nurse Manager to ensure that patient health education is being provided and
documented.

Recommendation 15. We recommended that processes be strengthened to ensure
that designated employees receive training on how to accurately document pressure
ulcer findings and that compliance be monitored.

Concur

Target date for completion: July 31, 2013

Facility response:

   1. The Wound Care Specialists will provide education to RNs on the pressure ulcer
      documentation relative to wound description, measurements, risk scores and
      dates on which pressure ulcers were acquired.


VA OIG Office of Healthcare Inspections                                                        25
                              CAP Review of the VA Western New York Healthcare System, Buffalo, NY


   2. All pressure	 ulcer documentation will be monitored monthly by Unit Nurse
      Managers to include acquired date, wound description, measurements, risk
      scores, and documentation accuracy and completeness.

Recommendation 16. We recommended that nurse managers monitor the staffing
methodology that was implemented in December 2012.

Concur

Target date for completion: July 15, 2013 with first quarterly meeting

Facility response: The staffing methodology plan for improvement process is to achieve
the following:

   1. The Staffing Methodology Coordinator will be a voting member of the facility
      expert panel (FEP).
   2. The FEP will meet on a quarterly basis to review all unit-based expert panel
      (UEP) recommendations and actual variances to the panel recommendations.
   3. All members of the UEP and FEP were educated using the TMS Module: Staffing
      Methodology for VHA Nursing Personnel: Overview.” The TMS system will be
      used to track this training.
   4. On a monthly basis, UEPs will review staffing to identify variances. T      	 hese
      variances will be reported quarterly to the FEP to determine if unit level staffing
      revisions are required.

Recommendation 17. We recommended that processes be strengthened to ensure
that designated employees receive ongoing construction safety training and that
compliance be monitored.

Concur

Target date for completion: May 23, 2013

Facility response: All members of the Construction Safety Committee will be educated
using “VHA Construction Safety Training” in TMS. The TMS system will be used to
track biennially compliance.




VA OIG Office of Healthcare Inspections                                                        26
                              CAP Review of the VA Western New York Healthcare System, Buffalo, NY
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Clarissa Reynolds, CNHA, MBA, Team Leader
Contributors            Annette Acosta, MN, RN
                        Chris Barlow
                        Elaine Kahigian, RN, JD
                        Frank Keslof, EMT, MHA
                        Claire McDonald, MPA
                        Jeff Stachowiak
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jeanne Martin, PharmD
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        27
                              CAP Review of the VA Western New York Healthcare System, Buffalo, NY
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Health Care Upstate New York (10N2)
Director, VA Western New York Healthcare System (528/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Kirsten E. Gillibrand, Charles E. Schumer
U.S. House of Representatives: Chris Collins, Brian Higgins


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        28
                                     CAP Review of the VA Western New York Healthcare System, Buffalo, NY
                                                                                            Appendix G

                                                 Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
   September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Material Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
   Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                       29
                                     CAP Review of the VA Western New York Healthcare System, Buffalo, NY



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
7
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration (OSHA) regulations.




VA OIG Office of Healthcare Inspections                                                                        30
